September 27, 2001

DONNA M. PEAK
VICE PRESIDENT, FINANCE, CONTROLLER

SUBJECT: Audit Report – Decision Analysis Report Process
         (Report Number DA-AR-01-005)

This report presents the results of our self-initiated audit of the Decision Analysis Report
Process (Project Number 00BA001DA000). The overall objective of our audit was to
determine whether major capital investments made by the Postal Service are properly
supported, documented, approved, and controlled.

We determined that the Postal Service generally followed the established capital project
approval process for the major projects reviewed in this audit. However, the audit
revealed that several projects were not adequately validated and were approved without
consideration of all test results, adequate support for savings and costs methodology, or
complete spares cost estimates. In addition, we noted limitations in the mechanisms for
reporting project performance to Postal Service management.

We made 12 recommendations to improve accountability for the Postal Service’s capital
investments. We recommend revising the policy to require more complete
documentation and analysis for validating and monitoring project performance. We also
recommend selecting effective performance measures to report project performance in
the Investment Highlights. Finally, we recommend developing policies and procedures
for selecting and monitoring projects for cost studies and reassessing the procedures to
perform cost studies. Management generally agreed with all of our recommendations.
However, management did not agree with some of the findings. Specifically, they
commented on the individual projects we cite in the report. Management’s comments
and our evaluation of these comments are included in the report.

The Office of Inspector General (OIG) considers recommendations 1 – 10 significant
and, therefore, requires OIG concurrence before closure. Consequently, the OIG
requests written confirmation when corrective actions are completed. These
recommendations should not be closed in the follow-up tracking system until the OIG
provides written confirmation that the recommendations can be closed. We appreciate
the cooperation and courtesies provided by your staff during the audit. If you have any
questions, or need additional information please contact Tracy LaPoint, director,
Developmental, at (703) 248-2100, or me at (703) 248-2300.



Robert L. Emmons
Assistant Inspector General
 for eBusiness

Attachment

cc: Richard J. Strasser, Jr.
    Patrick R. Donahoe
    John A. Rapp
    Thomas G. Day
    William T. Johnstone
    John R. Gunnels
Decision Analysis Report Process                                   DA-AR-01-005



                           TABLE OF CONTENTS
 Executive Summary                                                           i

 Part l

 Introduction                                                               1

    Background                                                              1
    Objectives, Scope, and Methodology                                      3
    Prior Audit Coverage                                                    5

 Part II

 Audit Results                                                              8

    Decision Analysis Reports Were Not Adequately Validated                 8
      Test Results and Analysis Not Considered                             10
      Recommendations                                                      11
      Management’s Comments                                                12
      Evaluation of Management’s Comments                                  12

           Savings and Cost Methodology Not Adequately Supported           15
           Recommendations                                                 16
           Management’s Comments                                           17
           Evaluation of Management’s Comments                             17

           Review of Spare Parts Estimates Not Complete                    20
           Recommendation                                                  20
           Management’s Comments                                           21
           Evaluation of Management’s Comments                             21

    Inadequate and Untimely Performance Reporting                          22
       Investment Highlights and Compliance Reports Lacked                 22
         Performance Measures
       Recommendations                                                     24
       Management’s Comments                                               25
       Evaluation of Management’s Comments                                 25

           Cost Studies Were Not Timely and Frequent                       26
           Recommendations                                                 27
           Management’s Comments                                           27
           Evaluation of Management’s Comments                             27

 Appendix. Management’s Comments                                           28



                                    Restricted Information
Decision Analysis Report Process                                                                   DA-AR-01-005



                                      EXECUTIVE SUMMARY
    Introduction                  Since 1997, we have reviewed Postal Service major
                                  developmental projects with investments totaling over
                                  $1.9 billion.1 Our reviews have revealed trends such as
                                  project delays, cost overruns, and inaccurate performance
                                  projections.

                                  As a result of these recurring issues, we initiated an audit of
                                  the Decision Analysis Report process to determine whether
                                  major capital investments made by the Postal Service were
                                  properly supported, documented, approved, and controlled.
                                  The objectives of the audit were to determine whether
                                  (1) Decision Analysis Reports were adequately validated,
                                  and (2) the performance of approved projects was
                                  measured and reported. This report addresses key controls
                                  for validating and monitoring Decision Analysis Report
                                  projects and focuses on major Decision Analysis Reports for
                                  seven projects. These included five equipment projects and
                                  two projects for replacing Postal Service operations with
                                  contractor-operated centers. We plan to conduct additional
                                  audits on other aspects of the Decision Analysis Report
                                  process.

    Results in Brief              We determined that the Postal Service generally followed
                                  the established capital project approval process for the
                                  major projects that were reviewed in this audit. However,
                                  our audit and several prior Office of Inspector General (OIG)
                                  audits have indicated that seven projects in excess of
                                  $800 million in approved capital investments2 were
                                  validated without fully documented consideration of all test
                                  results, adequate support for savings and costs
                                  methodology, or complete spares cost estimates. Since the
                                  Board of Governors relies on the validation process to
                                  ensure projects are adequately justified before approval, the
                                  Postal Service Finance department must thoroughly review


1
 Project name and approved capital and expense amount: Point of Service ONE, $899 million; Tray
Management System, $558 million; Priority Mail Processing Center Network, $19 million; Robotics Containerization
System, $81 million; Delivery Operations Information System, $120 million; Singulate, Scan, Induction Unit,
$103 million; Automatic Airline Assignment/Semi-Automatic Scan Where You Band, $112 million; Mail Transport
Equipment Service Center, $1.3 million.
2
 Project name and approved capital amount: Automatic Airline Assignment/Semi-Automatic Scan Where You
Band, $109 million; Delivery Operations Information System, $120 million; Mail Transport Equipment Service Center
Network, $1.3 million; Priority Mail Processing Center Network, $1.4 million; Robotics Containerization System,
$80 million; Singulate, Scan, Induction Unit, $102 million; Tray Management System-Phase III, $396 million.



                                                        i
                                             Restricted Information
Decision Analysis Report Process                                                                       DA-AR-01-005



                                     and validate all major projects.3 This is particularly
                                     important because the Postal Service projects a
                                     $1.65 billion loss in fiscal year (FY) 2001, which significantly
                                     reduces the availability of funding for capital investments
                                     and warrants more stringent validation requirements for
                                     future Decision Analysis Reports.

                                     Although Finance communicates the cost and schedule
                                     status of capital investment projects to the Board of
                                     Governors, we noted limitations in the mechanisms for
                                     reporting project performance to Postal Service
                                     management. While compliance reports were performed
                                     regularly, they did not provide adequate project information
                                     to reevaluate investment decisions. On the other hand, cost
                                     studies that provided more information were neither timely
                                     nor frequent. Together, these weaknesses in the reporting
                                     processes did not ensure projects achieved financial and
                                     operational Decision Analysis Report projections. Effective
                                     monitoring and reporting of project performance is critical
                                     given the $17.5 billion in planned capital investments for
                                     FYs 2001 to 2005 and because the Board of Governors has
                                     directed the Postal Service to defer $1 billion of the
                                     $3.6 billion in FY 2001 planned capital investments.

    Summary of                       We made 12 recommendations to improve accountability for
    Recommendations                  the Postal Service’s capital investments. We recommended
                                     revising the policy to require more complete documentation
                                     and analysis for validating and monitoring project
                                     performance. We also recommended selecting effective
                                     performance measures to report project performance in the
                                     Investment Highlights. Finally, we recommended
                                     developing policies and procedures for selecting and
                                     monitoring projects for cost studies and reassessing the
                                     procedures to perform cost studies.

    Summary of                       Management agreed with all 12 recommendations in the
    Management’s                     report. However, they did not agree with many of the
    Comments                         findings related to the individual projects we cite in the
                                     report. Specifically, management made several additional
                                     comments regarding differing perspectives and concerns
                                     related to the individual projects. These additional
                                     comments were not necessarily related to the
                                     recommendations. Management’s comments, in their
                                     entirety, are included in the appendix of this report.

3
    The Board of Governors approved $1.6 billion in FY 2000 for 20 new major capital investment projects.

                                                           ii
                                                Restricted Information
Decision Analysis Report Process                                                   DA-AR-01-005




 Overall Evaluation of         Management’s comments are fully responsive to our
 Management’s                  recommendations. However, management disagreed with
 Comments                      many of the details pertaining to the projects and OIG
                               reports that we reviewed and referenced. Management
                               repeatedly states that the impact of the report’s findings will
                               not have any negative effect on an individual project’s ability
                               to achieve its projected financial results.

                               However, we believe that there has been a significant
                               financial impact related to at least two of the projects, Tray
                               Management System and the Mail Transport Equipment
                               Service Center. The Mail Transport Equipment Service
                               Center project, is being pursued through the audit resolution
                               process. For the Tray Management System project, the
                               OIG and Finance concluded that the project would not
                               achieve intended results.

                               Many of the other projects referenced in the report are still
                               either in the deployment phase, or only recently fully
                               deployed. As a result, we believe that Finance cannot
                               determine if these projects are achieving expected results
                               because of the limited deployment and the lack of an
                               adequate project performance reporting system.

                               Nevertheless, the purpose of this audit was to determine if
                               (1) Decision Analysis Reports were adequately validated,
                               and (2) the performance of approved projects was
                               measured and reported. We found that Finance could
                               improve their processes for validating and monitoring
                               Decision Analysis Report projects. Overall, Finance agreed
                               that Handbook F-66 could be strengthened to improve
                               controls over validating and monitoring Decision Analysis
                               Report projects.




                                                 iii
                                       Restricted Information
Decision Analysis Report Process                                                                   DA-AR-01-005



                                           INTRODUCTION
    Background                    The Postal Service’s F-66 Handbook, Investment Policies
                                  and Procedures 4 (investment policy), establishes the
                                  approval process, procedures, and responsibilities for
                                  investments made by the Postal Service. Major capital
                                  investments, generally defined as exceeding $5 million,
                                  require a Decision Analysis Report, which is a justification to
                                  recommend an investment for approval. (Table 1 below
                                  outlines approval authority for capital investment levels.)

                                      Table 1: Approval Levels for Capital Investments

                                                Approval Authority                            Amount

                                                Board of Governors                        Over $10 Million

                                   Postmaster General/Chief Executive Officer             Up to $10 Million

                                          Senior Vice Presidents/Others*                 Up to $7.5 Million

                                                   Vice Presidents                        Up to $5 Million
                                  *Others include General Counsel, Chief Postal Inspector, and Inspector
                                  General.

                                  As shown in Table 2, the Decision Analysis Report is
                                  prepared by the sponsoring organization and sent to
                                  Finance for validation. Headquarters Finance is responsible
                                  for independently validating all Decision Analysis Reports
                                  for major investments to provide assurances to approving
                                  officials. Specifically, the Finance department provides
                                  assurance that supporting documentation complies with the
                                  policy and is reasonable, accurate, logical, valid, and
                                  auditable.

                                  The vice president Finance, controller, issues a validation
                                  letter after issues arising from the review are resolved. After
                                  validation, the appropriate authorities identified in Table 1
                                  and 2 review and approve the Decision Analysis Report.




4
 The Handbook F-66 Series includes five modules, F-66, F-66A, F-66B, F-66C, and F-66D for investment policies
and procedures. We reviewed the F-66, General Investment Policies and Procedures and F-66B, Investment
Policies and Procedures--Major Equipment.

                                                       1
                                            Restricted Information
Decision Analysis Report Process                                                                           DA-AR-01-005




                                                Table 2: Decision Analysis Report Process5

                                                                      Review and
                                                                    Approval Process
                                                                  Decision
                                                                                     Headquarters
                                                              Analysis Report
                                                                                    Vice Presidents       Final Decision
                                            Decision           to Finance for
                                                                                    & Area Concur        Analysis Report
                                         Analysis Report         Validation;
                                                                                     with Decision        Prepared and
                                           Prepared             Senior Vice
                                                                                    Analysis Report         Distributed
                                                               Presidents for
                                                                   Review
                                                                                    (as applicable)




                                                                                                             Capital
                                                                 Controller         Vice President         Investment
                                           Validation
                                                                   Issues             Review &             Committee
                                           Complete
                                                              Validation Letter        Approval             Review &
                                                                                                            Approval




                                          Postmaster             Board of
                                                                                       Board of
                                         General/Chief          Governors
                                                                                      Governors
                                           Executive          Capital Projects
                                                                                      Review &
                                         Officer Review         Committee
                                                                                      Approval
                                          & Approval             Review



                                                                         Post-Approval


                                         Contract Award       First Article Test     Deployment             Benefits




                                      After approval, the project sponsor6 is responsible for
                                      ensuring that costs are tracked and reported using the
                                      appropriate compliance report format. In addition, Finance
                                      monitors and reports the status of projects requiring Board
                                      of Governors’ approval quarterly in the Investment
                                      Highlights report. This report was initiated in 1996 at the
                                      request of the Board of Governors.

                                      As shown on the next page, the fiscal year (FY) 2001-2005
                                      Capital Investment Plan reported $17.5 billion in anticipated
                                      capital investments. The table illustrates major investment
                                      categories and 5-year estimates.


5
 Approving officials may vary depending on the investment amount. See Table 1, page 1 for capital investment
approval levels.
6
    The project sponsor is the Postal Service organization that requests and justifies the investment project.

                                                              2
                                                   Restricted Information
Decision Analysis Report Process                                                       DA-AR-01-005




                                          Table 3: Postal Service 5-Year Plan

                                      FY 2001-2005 Capital Investment
                                        Plan Categories ($ billions)


                                                                1
                                                       1.2

                                                 2.2                       7.4




                                                       5.6


                                          Equipment      7.4        Facilities   5.6
                                          Infrastructure 2.2        Vehicles     1.2
                                          Other          1.0



                               The Postal Service’s 5-Year Plan dedicates $7.4 billion or
                               43 percent of capital resources to developing equipment
                               technology. Most equipment investments consist of
                               automation and mechanization projects, which are based on
                               economic considerations such as return on investment.

 Objectives, Scope,            The purpose of our audit was to determine whether major
 and Methodology               capital investments made by the Postal Service are properly
                               supported, documented, approved, and controlled. The
                               objectives of the audit were to determine whether
                               (1) Decision Analysis Reports were adequately validated,
                               and (2) the performance of approved projects were
                               measured and reported.

                               Our audit focused on seven major Decision Analysis
                               Reports. Five projects involved major capital investments in
                               equipment and two were major projects for replacing Postal
                               Service operations with contractor-operated centers. All
                               seven projects required the Board of Governors’ approval.


                                                  3
                                       Restricted Information
Decision Analysis Report Process                                                   DA-AR-01-005



                               Although the two projects for replacing Postal Service
                               operations did not require a significant capital investment,
                               they represented considerable changes in organizational
                               strategy and involved billions of dollars in contracts and
                               operating expenses. We also interviewed headquarters
                               officials in Engineering, Information Technology, and
                               Facilities, to determine their roles in the Decision Analysis
                               Report process.

                               For our review, we selected three approved Postal Service
                               equipment projects, which are being audited or were
                               audited by the Office of Inspector General (OIG) this year:

                                   •   Singulate, Scan, Induction Unit

                                   •   Automatic Airline Assignment/Semi-Automatic Scan
                                       Where You Band

                                   •   Delivery Operation Information System

                               In addition, we relied on prior OIG audit reports that
                               identified internal control weaknesses with the Decision
                               Analysis Report process. Two of the prior audits were
                               major equipment projects and two were major projects that
                               replaced Postal Service operations with contractor-operated
                               centers; all required the Board of Governors’ approval.
                               These audit reports and Postal Service management
                               responses are summarized in the Prior Audit Coverage
                               section:

                                   •   Priority Mail Processing Center Network
                                   •   Tray Management System
                                   •   Robotics Containerization System
                                   •   Mail Transport Equipment Service Center

                               The OIG has also issued reports that identified internal
                               control issues regarding the Decision Analysis Report
                               process for two other major projects:

                                   •   Point of Service ONE
                                   •   International Mail

                               Although these reports are listed in the Prior Audit Coverage
                               section, we have not included their findings as examples




                                                   4
                                        Restricted Information
Decision Analysis Report Process                                                 DA-AR-01-005




                               in this report. The issues reported on these two projects did
                               not pertain directly to this phase of the Decision Analysis
                               Report audit.

                               To address the first objective we determined whether major
                               Decision Analysis Reports had (1) adequate supporting
                               documentation and analysis, and (2) were sufficiently
                               validated to ensure costs and benefits were accurately
                               represented. To address the second objective, we reviewed
                               the adequacy and completeness of the processes in place
                               to monitor and report the actual project performance of
                               approved major capital projects.

                               In planning our audit we used the General Accounting
                               Office’s (GAO) Executive Guide for Leading Practices in
                               Capital Decision-Making, Exposure Draft, April 1998. This
                               guide summarizes the fundamental practices that have
                               been successfully implemented in governmental and private
                               sector organizations recognized for their outstanding capital
                               decision-making practices.

                               This audit was conducted between July 2000 and
                               September 2001 in accordance with generally accepted
                               government auditing standards, and included such tests of
                               internal controls as were considered necessary under the
                               circumstances. We discussed our findings and
                               recommendations with appropriate management officials
                               and included their comments where appropriate.

 Prior Audit Coverage          Previous audit reports concluded that management
                               presented projects to the Board of Governors for approval
                               without adequate documentation and analyses, or that the
                               projects may not achieve anticipated performance and
                               financial results.

                                   •   Point of Service ONE (DA-AR-99-002), dated
                                       September 20, 1999, disclosed that during
                                       development and deployment, the system was not
                                       achieving the results outlined in the Decision
                                       Analysis Report. We recommended that
                                       management improve the monitoring of controls to
                                       ensure project accountability. Management agreed
                                       with our recommendations.




                                                   5
                                        Restricted Information
Decision Analysis Report Process                                                 DA-AR-01-005



                                   •   Priority Mail Processing Center Network (DA-AR-99-
                                       001), dated September 24,1999, revealed that the
                                       project did not report all costs and did not meet
                                       service improvement goals. Management generally
                                       agreed with our recommendations; however, they did
                                       not agree with all of our findings, and claimed the
                                       project was prematurely evaluated.

                                   •   Tray Management System (DA-AR-00-002), dated
                                       March 31, 2000, disclosed that the Tray Management
                                       System was experiencing a negative return on
                                       investment because anticipated savings were
                                       overstated in three areas by $462 million.
                                       Management did not initially agree to reevaluate
                                       savings and reassess continued deployment, stating
                                       the methodologies they used in validation were
                                       sufficiently accurate and fully achievable. However,
                                       management subsequently agreed to reevaluate
                                       savings projections. In May 2001, at the request of
                                       the Board of Governors, the OIG reassessed the
                                       actual return on investment of the project. We
                                       determined that the project was still experiencing a
                                       negative return on investment. The Postal Service
                                       also recomputed the return on investment for the
                                       system and concluded the project was achieving
                                       about a 1 percent return.

                                   •   International Mail (AC-AR-00-005), dated
                                       September 29, 2000, disclosed project changes were
                                       made that altered the overall concept and increased
                                       costs without submitting Decision Analysis Report
                                       modifications. Management agreed with the report
                                       recommendation to modify the Decision Analysis
                                       Report and to report the actual use of funds, but
                                       disagreed with the finding.

                                   •   Robotics Containerization System (DA-AR-01-002),
                                       dated February 26, 2001, concluded that work hour
                                       savings projected at $347 million in the Decision
                                       Analysis Report would not be realized unless
                                       planned staffing levels were achieved. The report
                                       also stated that the cost of spare parts was
                                       understated in the Decision Analysis Report.
                                       Management generally agreed with our
                                       recommendations. However, Engineering officials
                                       indicated current operations are achieving planned

                                                   6
                                        Restricted Information
Decision Analysis Report Process                                                   DA-AR-01-005



                                       staffing levels and they expect to realize the savings
                                       projected in the Decision Analysis Report.

                                   •   Delivery Operations Information System (DA-AR-01-
                                       003), dated March 29, 2001, disclosed weaknesses
                                       in the methods and assumptions used to derive
                                       productivity savings and the related return on
                                       investment. Management agreed to incorporate
                                       lessons learned into future Information Platform
                                       projects.

                                   •   Mail Transport Equipment Service Center Decision
                                       Analysis Report, Performance, and Financial Benefits
                                       (TR-AR-01-003), dated May 4, 2001, concluded that
                                       the Decision Analysis Report was inaccurate and a
                                       significant portion of the savings was incorrectly
                                       calculated. As a result, the network would not
                                       achieve anticipated savings and the costs would
                                       exceed forecasts by more than $1.4 billion.
                                       Management did not agree to prepare a Decision
                                       Analysis Report modification. This recommendation
                                       is being pursued through the audit resolution
                                       process.




                                                   7
                                        Restricted Information
Decision Analysis Report Process                                                 DA-AR-01-005



                                       AUDIT RESULTS
 Decision Analysis            Our audit and several prior OIG reviews indicated that
 Reports Were Not             seven projects in excess of $800 million in approved capital
 Adequately Validated         investments were not adequately validated before approval.
                              Specifically, Finance’s documentation did not always
                              completely support or fully disclose various elements of the
                              validation process. For example, Finance validated these
                              projects without documented consideration of all test results,
                              adequate support for savings and costs methodology, or
                              complete spare parts cost estimates. Three of the projects
                              we reviewed were major equipment projects. Two of the
                              prior audits were major equipment projects and two were
                              major projects involving replacing Postal Service operations
                              with contractor-operated centers; all required the Board of
                              Governors’ approval. The two projects for contractor-
                              operated centers did not require a significant capital
                              investment, but involved considerable changes in
                              organizational strategy and involved billions of dollars in
                              contracts and operating expenses. As shown in Table 4,
                              major projects totaling $809 million in approved capital were
                              reviewed by Finance and submitted to the Board of
                              Governors with inadequate documentation and analysis.




                                                 8
                                      Restricted Information
Decision Analysis Report Process                                                                       DA-AR-01-005



                                       Table 4: Projects with Inadequate Documentation and
                                                              Analysis
                                         Project             Test                                 Inventory
                                                  7
                                       Approved            Results          Cost and             Specialists’
                                         Capital             and             Savings           Review of Spare
                                        (millions)         Analysis        Methodology         Parts Estimates
                                      AAA/SASWYB              X                 X                     X
                                          $109
                                      DOIS                                        X
                                          $120
                                      RCS                      X                                        X
                                            $80
                                      SSIU                     X                  X                     X
                                          $102
                                      TMS Phase III                               X
                                          $396
                                      PMPC                                        X
                                            $1
                                      MTESC                                       X
                                          $1
                                      Total
                                          $809
                                     *Note: X denotes areas with inadequate information.


                                     The GAO’s Executive Guide for Leading Practices in Capital
                                     Decision-Making states that leading organizations have
                                     capital review processes in place that determine the level of
                                     analysis and review based on the size, complexity, and cost
                                     of the project. Projects that are expensive and are crucial to
                                     an organization’s strategy usually require more analysis,
                                     support, and review than projects that cost less or have less
                                     organization-wide impact.

                                     Since the Board of Governors relies on the validation
                                     process to ensure that projects are sufficiently justified
                                     before approval, Finance must thoroughly review all major
                                     projects.8 This is particularly important because the Postal
                                     Service projects a $1.65 billion loss in FY 2001, which
                                     significantly reduces the availability of funding for capital
                                     investments and warrants more stringent validation
                                     requirements for future projects.



7
  AAA/SASWYB: Automatic Airline Assignment/Semi-Automatic Scan Where You Band; DOIS: Delivery Operations
Information System; RCS: Robotics Containerization System; SSIU: Singulate, Scan, Induction Unit; TMS: Tray
Management System-Phase III; PMPC: Priority Mail Processing Center; MTESC: Mail Transport Equipment Service
Center.
8
    The Board of Governors approved $1.6 billion in FY 2000 for 20 new major capital investment projects.

                                                           9
                                                Restricted Information
Decision Analysis Report Process                                                  DA-AR-01-005




 Test Results and             Our audit showed that in three major equipment projects
 Analysis Not                 with total approved capital investments of $291 million,
 Considered                   project sponsors did not submit adequate supporting
                              documentation for analyses of test results. This
                              condition existed although Handbook F-66B requires the use
                              of detailed information, such as machine performance, to
                              support assumptions in the Decision Analysis Report. For
                              example:

                                   •   Singulate, Scan, Induction Unit – Prototype results
                                       were included in the supporting documentation;
                                       however, competitive test results and analysis were
                                       not included although the test had been performed
                                       before final validation.

                                   •   Automatic Airline Assignment/Semi-Automatic Scan
                                       Where You Band – Finance validated the Decision
                                       Analysis Report with unsubstantiated results from
                                       prequalification tests. In addition, the Decision
                                       Analysis Report indicated that competitive testing was
                                       scheduled before approval by the Board of
                                       Governors; however, competitive tests were
                                       completed after approval, and Finance’s
                                       documentation did not include competitive testing
                                       results and analysis.

                                   •   Robotics Containerization System – Finance
                                       validated the Decision Analysis Report, although test
                                       results consistently failed to meet system
                                       performance targets.

                              Our audit highlighted the following weaknesses in Postal
                              Service policy and procedures that if corrected could provide
                              improvements to the validation process:

                                   •   Although the investment policy states that detailed
                                       supplemental information is required to support
                                       assumptions in a Decision Analysis Report, it does
                                       not provide specific guidelines for sponsors to
                                       document project tests and analysis for validation.

                                   •   Investment policy does not require Finance to monitor
                                       equipment performance assumptions by documenting
                                       summary competitive test results and analyses when
                                       validation is performed prior to the completion

                                                  10
                                        Restricted Information
Decision Analysis Report Process                                                                       DA-AR-01-005




                                        of competitive testing. Finance relies on sponsors’
                                        assurances that test results and analyses met
                                        projections in Decision Analysis Reports.

                                        •    Investment policy does not require Finance to assure
                                             equipment performance tests are completed before
                                             Decision Analysis Reports are validated and
                                             approved. Equipment performance testing was not
                                             always completed before validation and approval of
                                             Decision Analysis Reports.

                                        •    Finance's internal procedures do not require
                                             independent reviews of conditionally accepted
                                             projects. Engineering stated that many systems were
                                             released for deployment after the First Article Test9
                                             under a conditional acceptance, and in some
                                             instances, the acceptance criteria were revised when
                                             original parameters seemed unreasonable or
                                             unattainable. Project sponsors were responsible for
                                             ensuring that conditionally accepted equipment was
                                             consistent with performance projections in Decision
                                             Analysis Reports.

                                   As a result, the Postal Service approved investments in
                                   projects, such as the Tray Management System, when
                                   expected cost and benefit projections in the Decision
                                   Analysis Report were not supported. It is imperative that
                                   projects submitted to the Board of Governors demonstrate a
                                   high probability of meeting operational and financial
                                   projections through independently validated test results.

    Recommendation                 We recommend the vice president, Finance, controller,
                                   revise Handbook F-66, Investment Policies and Procedures,
                                   to require that:

                                        1.      Project sponsors provide Finance with test plans,
                                                summary data, and an analysis of available test
                                                results to ensure projections in Decision Analysis
                                                Reports are reasonable.




9
 After funding is approved and the contract is awarded, the project sponsor conducts the First Article Test to
evaluate equipment for functionality, quality, and compliance with contract specifications.



                                                         11
                                               Restricted Information
Decision Analysis Report Process                                                    DA-AR-01-005




 Management’s                 Management agreed with the recommendation, but not with
 Comments                     the findings. They agreed that Handbook F-66 requires
                              verification of operating costs variances and the review of
                              assumptions. As such, management will prepare a
                              memorandum by the end of quarter II, FY 2002, to remind
                              the sponsors and Program Evaluation staff of this
                              requirement. Lastly, management will strengthen the
                              appropriate Handbook F-66 areas as identified in their
                              response.

                              Management also included comments on our discussion of
                              the Singulate Scan Induction Unit projects’ lack of
                              documentation for the competitive test results. They
                              indicated that they do not believe this finding has any
                              negative effect on the project’s ability to achieve its
                              projected financial results.

 Evaluation of                Management’s comments are responsive to our
 Management’s                 recommendation. Management agreed to notify sponsors
 Comments                     and Finance staff of this requirement. Management also
                              agreed to strengthen the Handbook F-66 by requiring
                              sponsors to include a summary of any available test results.
                              We believe the actions planned, if implemented, should
                              correct the issues identified in our report.

                              We do not agree with management’s comments regarding
                              the Singulate Scan Induction Unit project. Management
                              states they believe their lack of documented competitive test
                              results and analysis for this project has no negative effect on
                              the project’s ability to achieve its projected financial results.
                              However, we question how Finance can reach this
                              conclusion without validating the summary competitive test
                              results and analysis, or having an adequate performance
                              measurement system.

 Recommendation                    2.   If validation is performed prior to the completion of
                                        competitive testing, Finance will obtain the
                                        summaries of competitive test results and analyses,
                                        and compare them to the Decision Analysis Report
                                        assumptions, taking the appropriate notification
                                        action if the performance significantly varies from
                                        the Decision Analysis Report assumptions.




                                                  12
                                        Restricted Information
Decision Analysis Report Process                                                    DA-AR-01-005




 Management’s                 Management agreed with this recommendation and will
 Comments                     obtain the summaries of competitive test results and
                              analyses, and compare them to the Decision Analysis
                              Report assumptions. Management will also take the
                              appropriate notification action and follow up if performance
                              significantly varies from Decision Analysis Report
                              assumptions. Management agreed to strengthen the
                              Handbook F-66 to include reviews of completed test results
                              after validation.

                              Management also included comments on our discussion of
                              the Automated Airline Assignment projects’ competitive tests
                              results. They stated that competitive test results exceeded
                              prequalification test results in the trays per minute measure.
                              Management also indicated that the impact of
                              unsubstantiated test results and analysis for the project has
                              no negative effect on its ability to achieve projected financial
                              results.

 Evaluation of                Management’s comments are responsive to our
 Management’s                 recommendation. Management agreed to change the
 Comments                     Handbook F-66 and perform reviews of competitive test
                              results and analysis to ensure Decision Analysis Report
                              assumptions are still valid. We believe the actions planned,
                              if implemented, should correct the issues identified in our
                              report.

                              We do not agree with management’s comments on the
                              Automated Airline Assignment program tests results. We
                              found that the tray per minute measure is only one of many
                              performance measures for this program. Furthermore, we
                              determined that the competitive test indicated qualified
                              vendors did not meet several other performance measures
                              in the competitive test. Without assessing the impact of the
                              other performance measures, we question how
                              management can definitively state the lack of competitive
                              test results has no negative effect on the project’s ability to
                              achieve its projected financial results. Further, we question
                              how Finance can reach their conclusion without having an
                              adequate performance measurement system.

 Recommendation                    3.   The test status is fully disclosed in the validation
                                        letter when submitting equipment projects for
                                        approval.



                                                  13
                                        Restricted Information
Decision Analysis Report Process                                                   DA-AR-01-005




 Management’s                 Management agreed with this recommendation. However,
 Comments                     management stated that since full disclosure is part of the
                              validation process and included in the Handbook F-66B,
                              Section 5, changes are not needed.

                              Management also included comments on several projects
                              we reviewed, stating specific examples of full disclosure for
                              those projects referenced in the report.

 Evaluation of                Management’s comments are responsive to our
 Management’s                 recommendation. Management agreed that full disclosure is
 Comments                     necessary and a part of the validation process. Although
                              the policy does not clearly state that the test status should
                              be disclosed, we believe that management’s actions for
                              recommendations 1 and 2, if implemented, will meet our
                              overall intent of improving the controls for validating and
                              disclosing test results. We consider including the test status
                              in the validation letter as an additional level of disclosure of
                              testing accomplished.

                              We do not agree with management’s comments that the
                              Robotics Containerization System test status was fully
                              disclosed to the Board of Governors. Management stated
                              that the Board of Governors was advised that each vendor’s
                              design was tested at their respective plants, and that they
                              were successfully meeting the requirements defined in the
                              Statement of Work. However, the OIG reported that the
                              documentation related to the initial testing indicated vendors
                              were not meeting many of the performance goals.
                              Furthermore, the competitive test indicated that the
                              contractor that received the award did not meet several
                              Statement of Work criteria.

 Recommendation                    4.   Sponsors notify Finance of conditionally accepted
                                        projects and apprise Finance of actions taken to
                                        improve performance prior to final acceptance. If
                                        deployment continues, Finance will monitor these
                                        projects using the performance measures and
                                        leading indicators process identified in
                                        recommendations eight and nine.

 Management’s                 Management agreed with the recommendation and will
 Comments                     prepare a memorandum by the end of quarter II, FY 2002 to
                              notify the sponsors and Program Evaluation staff of this



                                                  14
                                        Restricted Information
Decision Analysis Report Process                                                  DA-AR-01-005




                              requirement. Also, management agreed to change the
                              Handbook F-66 section for compliance reporting to
                              strengthen controls for project monitoring.

 Evaluation of                Management’s comments are responsive to our
 Management’s                 recommendation. Management agreed to strengthen the
 Comments                     policy and to notify sponsors and Finance staff of the
                              processes for monitoring conditionally accepted projects.
                              We believe the actions planned, if implemented, should
                              correct the issues identified in our report.

 Savings and Cost             Postal Service policy requires detailed information to support
 Methodology Not              assumptions in Decision Analysis Reports. Our review
 Adequately Supported         showed that in six projects with total approved capital of
                              $729 million, sponsors did not submit sufficient supporting
                              documentation to justify the methodologies used.

                              Specifically, project sponsors’ documentation did not support
                              or fully disclose:

                                   •   How hardware costs that comprised 45 percent of the
                                       Singulate, Scan, Induction Unit investment were
                                       computed.

                                   •   Their justification for including 20 unassigned
                                       machines in the savings calculation, which
                                       represented approximately 5 percent of savings for
                                       the Automated Airline Assignment/Semi-Automatic
                                       Scan Where You Band systems. The Decision
                                       Analysis Report disclosed that these 20 additional
                                       machines would only be purchased and deployed to
                                       economically justified sites.

                                   •   How including savings for three nonconcurring areas
                                       would impact total Decision Analysis Report savings
                                       for the Delivery Operations Information System.
                                       Although Finance’s validation letter stated 3 of
                                       11 areas did not concur with savings methodologies,
                                       it did not disclose that savings were included in the
                                       Decision Analysis Report for these 3 areas.




                                                  15
                                        Restricted Information
Decision Analysis Report Process                                                                  DA-AR-01-005



                                          Furthermore, the three nonconcurring areas also
                                          identified weaknesses in the testing and savings
                                          methodologies.10

                                      •   The inconsistency in the Tray Management System
                                          Decision Analysis Report, which based the return on
                                          investment computation on work hour savings
                                          estimates from equipment deployment sites only,
                                          while Postal Service management allocated the
                                          project savings nationally. As a result, the audit
                                          revealed the return on investment was overstated.

                                      •   Why savings for the discontinued Greensboro,
                                          North Carolina, prototype service center were double
                                          counted in the Mail Transport Equipment Service
                                          Center Decision Analysis Report. As a result of this
                                          analytical error, the audit determined that savings for
                                          the Greensboro service area were overstated by
                                          $177 million.

                                      Their justification for not including acceptance and
                                      delivery costs in total network service costs for the
                                      Priority Mail Processing Center Network. The
                                      methodology was not an accurate comparison because
                                      these costs are needed along with contract volume
                                      variable costs, which are included, to accurately reflect
                                      total end-to-end service costs. As a result of this
                                      omission, the audit concluded Priority Mail processed
                                      through the Priority Mail Processing Center Network in
                                      FY 1998 cost $101 million or 23 percent more than the
                                      same volume processed in-house by the Postal Service.

                                 Supporting documentation was inadequate because Postal
                                 Service policy required detailed supplemental information for
                                 methodologies, but did not require sponsors to submit
                                 specific supporting documentation for cost and savings
                                 methodologies. Without strengthening the policy, there is an
                                 increased risk that future projects may be validated based
                                 on unattainable financial expectations.

 Recommendation                  We recommend the vice president, Finance, controller,
                                 revise Handbook F-66, Investment Policies and Procedures,
                                 to require that:

10
   Delivery Operations Information System (DA-AR-01-003) identified several weaknesses in testing methodology and
related savings. Postal Service management agreed with our recommendation to incorporate lessons learned from
the financial justification of the project in future initiatives.

                                                      16
                                            Restricted Information
Decision Analysis Report Process                                                DA-AR-01-005




                                   5.   Sponsors provide detailed analyses to support the
                                        adequacy and reasonableness of savings and cost
                                        methodologies in Decision Analysis Reports.

 Management’s                 Management agreed with our recommendation; however,
 Comments                     they did not agree with most examples supporting our
                              findings. Management agreed to strengthen the policy
                              sections for operating variances and Decision Analysis
                              Report assumptions.

                              Management included comments on many of the projects
                              we referenced as examples where documentation did not
                              support or fully disclose savings and cost methodologies.
                              Management disagreed with many of the references from
                              the OIG reports and discussions of projects we reviewed in
                              the section entitled, “Savings and Cost Methodology Not
                              Adequately Supported.”

                              Management states that for the Mail Transport Equipment
                              Service Center report the OIG finding is incorrect regarding
                              savings being overstated by $177 million for the Greensboro
                              service area.

                              Management states the inconsistencies in the methodology
                              used in the Tray Management System savings calculation
                              was a management decision fully endorsed by the Board of
                              Governors. Further, senior management has the authority
                              to determine how budget savings are allocated as long as
                              the project meets or exceeds the return on investment.
                              Therefore, management believes our finding is irrelevant to
                              this audit of the Decision Analysis Report process.

                              Management commented that the Decision Analysis Report
                              for the Delivery Operations Information System included
                              savings for three areas that nonconcurred, and that this had
                              no impact on the project’s financial results. Management
                              notes that it is always senior management’s prerogative to
                              increase or decrease budgeted hours as long as the
                              Decision Analysis Reports economics have not changed.

                              Management also did not agree with our conclusion that the
                              supporting documentation for the Singulate, Scan, Induction
                              Unit hardware costs was not complete.




                                                  17
                                        Restricted Information
Decision Analysis Report Process                                                  DA-AR-01-005




 Evaluation of                Management’s comments are responsive to our
 Management’s                 recommendation. Management agreed to strengthen
 Comments                     Handbook F-66, as necessary, for the verification of
                              assumptions and operating cost variances, which directly
                              relate to project savings. We believe the actions planned, if
                              implemented, should begin correcting the issues identified in
                              our report.

                              Regarding management’s disagreements with the examples
                              we cited of inadequate support for savings and cost
                              methodology, management has yet to provide the OIG with
                              evidence to support its position. Specifically, while the OIG
                              audit report on the Mail Transport Equipment Service Center
                              Decision Analysis Report, Performance and Financial
                              Benefits (Report Number TR-AR-01-003, dated May 4,
                              2001) is being pursued through the audit resolution process,
                              the Postal Service has not been able to explain why the
                              $177 million savings for the Greensboro area was double
                              counted. Further, this double counting was not detected in
                              Finance’s validation of the projected savings for this project.

                              We strongly disagree with management’s assertion
                              regarding the relevancy of the Tray Management System
                              findings to this audit. We believe this example provides a
                              good illustration of how the Postal Service’s methodology
                              was inadequate in supporting projected savings. The OIG
                              determined that savings were applied to sites that did not
                              have Tray Management Systems, which inflated the savings
                              projection in the Decision Analysis Report. A follow up OIG
                              audit of the project confirmed the return on investment was
                              significantly overstated, and that the actual return on
                              investment was a negative 5 percent instead of the
                              4.9 percent originally projected. Management also
                              reevaluated the return on investment and reached similar
                              conclusions, although their cost study showed a 1 percent
                              return on investment.




                                                18
                                      Restricted Information
Decision Analysis Report Process                                                 DA-AR-01-005




                              With respect to management’s comments on the Delivery
                              Operations Information System, we believe when three
                              areas challenged the validity of the savings, Finance should
                              have reassessed the savings methodology. While
                              management stated they have the prerogative to increase or
                              decrease budgeted hours, this does not absolve Finance
                              from its obligation to ensure all projected savings and cost
                              analyses presented to the Board of Governors are reliable
                              and adequately supported. Lastly, the OIG audit report for
                              the Delivery Operations Information System (Report
                              Number DA-AR-003 dated March 29, 2001) projects
                              disclosed weaknesses in the methods and assumptions
                              used to derive productivity savings. Management agreed to
                              incorporate lessons learned from this project into future
                              efforts.

                              Management also disagreed with our conclusion that the
                              supporting documentation for the Singulate, Scan, Induction
                              Unit hardware costs was not complete. We found that
                              although the subject matter expert prepared an estimate for
                              hardware costs, they did not provide Finance sufficient detail
                              to support the per site hardware costs. There was no
                              methodology explaining how the per site equipment cost of
                              $2.2 million was determined. The total hardware estimate
                              of $42 million appears to be based on the minimum amount
                              of machines needed (2 per site times 21 sites). The
                              Decision Analysis Report equipment requirements ranged
                              from 42-58 machines based upon estimated volume and
                              throughput. Finally, the hardware cost represented about
                              45 percent of the total investment, which will significantly
                              affect the project’s return on investment if mistakenly
                              calculated.

                              Furthermore, most of the other projects discussed in the
                              report are either still being deployed or only recently fully
                              deployed. As such, Finance cannot definitively determine
                              the impact on the projects ability to achieve expected
                              results. Finally, the lack of an adequate project performance
                              reporting system limits Finance’s assurance the projects are
                              achieving the intended productivity savings.




                                                19
                                      Restricted Information
Decision Analysis Report Process                                                    DA-AR-01-005




 Recommendation                    6.   Finance fully discloses savings in the validation
                                        letter, including factors that may affect return on
                                        investment.

 Management’s                 Management agreed with this recommendation and stated
 Comments                     that it is currently part of the Decision Analysis Report
                              process.

                              Management included comments on the projects,
                              Automated Airline Assignment, Semi-Automatic Scan Where
                              You Band, and Delivery Operations Information System,
                              referenced as examples where factors that may affect
                              savings were not fully disclosed. Management commented
                              that all but four of the Automated Airline Assignment
                              machines remain unassigned.

 Evaluation of                Management’s comments are responsive to our
 Management’s                 recommendation. Management agreed that full disclosure is
 Comments                     necessary and a part of the validation process. We still
                              believe including risk factors that could negatively impact
                              return on investment in the validation letter may provide
                              some additional assurance of disclosure. However,
                              management’s overall actions for recommendations one
                              through five, if implemented, will improve the controls for
                              validating project test results and savings.

                              Also, management agreed that in the future they would
                              perform a sensitivity analysis of the savings without the
                              unassigned machines for projects where additional units are
                              purchased and not yet assigned to a specific site.
                              Management agreed to prepare a memorandum by the end
                              of quarter II, FY 2002, to notify the Finance staff of this
                              requirement.

                              We disagree with management’s comments on the
                              Automated Airline Assignment System. Currently, there are
                              six unassigned Automated Airline Assignment machines and
                              ten unassigned Semi-Automatic Scan Where You Band
                              machines.

                              We also disagree with management’s comments on the
                              Delivery Operations Information System project regarding
                              the three areas nonconcurrence with Decision Analysis
                              Report savings estimates. Finance states they do not


                                                  20
                                        Restricted Information
Decision Analysis Report Process                                                    DA-AR-01-005



                              believe this will have any negative impact on the project’s
                              ability to achieve its projected financial results. However,
                              without an adequate system to monitor project performance,
                              we do not agree with Finance’s assertion that no financial
                              impacts may result.

 Review of Spare Parts        Although inventory specialists within the Purchasing and
 Estimates Not                Materials group provided input on the cost of spare parts,
 Complete                     they did not have the opportunity to review final estimates in
                              Decision Analysis Reports. In three major equipment
                              projects that we reviewed with total approved capital of
                              $291 million, spare parts estimates were understated by
                              millions of dollars.

                                   •    For the Robotics Containerization System, the project
                                        manager reduced spare parts estimates without
                                        concurrence from the inventory specialist.

                                   •    For two separate Decisions Analysis Reports,
                                        (1) Automated Airline Assignment/Semi-Automatic
                                        Scan Where You Band, and (2) Singulate, Scan,
                                        Induction Unit, initial assumptions used to calculate
                                        spare parts estimates were incorrect. There was no
                                        indication that an inventory specialist had reviewed
                                        the estimates for the final Decision Analysis Reports.

                              These conditions existed because project sponsors were not
                              required to consult inventory specialists to confirm final cost
                              estimates for spare parts. Without such feedback, there is
                              an increased risk of understated projections, which could
                              result in spare parts funded outside of the approved
                              Decision Analysis Report. More importantly, understated
                              projections may result in an overstated return on investment.

                              Ultimately, the sponsor and project manager are responsible
                              for a Decision Analysis Report’s spare parts cost estimates.
                              However, Finance should evaluate any differences between
                              the inventory specialist’s and project official’s estimates. If a
                              resolution is not reached, then the Decision Analysis Report
                              should fully disclose the disagreements in spare parts cost
                              estimates.

 Recommendation               We recommend the vice president, Finance, controller:

                                   7.     Revise Handbook F-66, Investment Policies and
                                          Procedures, to require Finance to ensure inventory

                                                   21
                                         Restricted Information
Decision Analysis Report Process                                                  DA-AR-01-005



                                       specialists review spare parts estimates in the final
                                       Decision Analysis Report and provide written
                                       analysis.

 Management’s                 Management agreed with this recommendation and will
 Comments                     prepare a memorandum by the end of quarter II, FY 2002 to
                              notify the sponsors and Program Evaluation staff of this
                              requirement. Also, management stated that this
                              requirement is addressed in the Handbook F-66, but that
                              they will add more specific instructions to provide for further
                              reviews of spare parts cost estimates.

 Evaluation of                Management’s comments are responsive to our
 Management’s                 recommendation. Management agreed with the intent of the
 Comments                     recommendation and will also communicate this requirement
                              in a memorandum. Also, management agreed to change
                              the Handbook F-66 to strengthen controls for project
                              monitoring. We believe the actions planned, if implemented,
                              should correct the issue identified in our report.




                                                 22
                                       Restricted Information
Decision Analysis Report Process                                                                       DA-AR-01-005




 Inadequate and                    The audit disclosed that the cost and performance of
 Untimely                          approved projects was not adequately reported to the Board
 Performance                       of Governors. Although Finance communicates cost and
 Reporting                         schedule status of major capital investment projects to the
                                   Board of Governors, we noted the Investment Highlights,11
                                   compliance reports, and cost studies did not adequately
                                   report project performance results and costs to Postal
                                   Service management.

                                   While compliance reports were performed regularly, they did
                                   not provide adequate project information. On the other
                                   hand, cost studies that provided more information were
                                   neither timely nor frequent. As a result, projects exceeding
                                   cost projections and failing to perform were not brought to
                                   the attention of the Governors. Consequently, the Board of
                                   Governors did not have the information they needed to
                                   reevaluate current and future investments.

 Investment Highlights             Our audit revealed that compliance reports and Investment
 and Compliance                    Highlights did not contain key performance measures for
 Reports Lacked                    evaluating economically justified projects.12 The GAO’s
 Performance                       Executive Guide for Leading Practices in Capital Decision-
 Measures                          Making states that leading organizations generally hold
                                   project managers accountable for meeting performance
                                   goals. Also, the guide indicates that regular reviews of
                                   project performance status by individuals outside of the
                                   project team allows for an independent assessment of
                                   project success. Although the Postal Service’s Investment
                                   Highlights report communicated the status of capital project
                                   costs and whether a project was on schedule, it did not
                                   provide sufficient information to measure the project’s
                                   effectiveness in meeting performance and operating cost
                                   projections.

                                   Compliance reports are intended to provide assurances that
                                   projects are implemented and savings materialize as stated
                                   in the approved Decision Analysis Report. Compliance
                                   reports must be submitted quarterly from the time of
                                   Decision Analysis Report approval until 18 months after
                                   deployment. The project sponsor has responsibility for
11
   Finance’s quarterly report tracking all investment projects approved by the Board of Governors; primarily generated
from compliance reports and project sponsors.
12
  Projects justified by economic considerations provide a measurable improvement to operations, produce economic
benefits, and meet a target hurdle rate.



                                                        23
                                              Restricted Information
Decision Analysis Report Process                                                  DA-AR-01-005



                              ensuring that costs for all projects are tracked and reported
                              using the appropriate Decision Analysis Report compliance
                              report format.

                              Compliance reports also provide information for key
                              measures included in the Investment Highlights reports,
                              such as approved capital investment, committed capital
                              investment, estimated capital investment at completion,
                              capital cash outlays, on-time status and percentage
                              complete. Finance routinely validates the committed capital
                              and cash outlays through reconciliation with accounting
                              systems. However, we determined that while compliance
                              reports were performed regularly, they did not provide
                              adequate project performance information for actual
                              operating costs, work hours, and volume.

                              The audit revealed that the accounting system used to
                              validate compliance reports did not track operating
                              expenditures or actual savings for projects. As a result,
                              Finance cannot report the actual return on investment for
                              projects in the Investment Highlights.

                              Our audit also disclosed that significant operating cost
                              overruns might be incurred and not reported. For example,
                              the Audit of the Mail Transport Equipment Service Center
                              Decision Analysis Report, Performance and Financial
                              Benefits, concluded the projects’ operating expenses would
                              exceed estimates by about $1.4 billion. The report states
                              that the project’s compliance reports did not fully portray the
                              problem, and consequently the Board of Governors may not
                              have been fully aware of the situation. The report
                              recommended that Postal Service management develop a
                              Decision Analysis Report modification to adjust for the
                              unanticipated conditions. Postal Service management did
                              not concur, stating that operating variances, even of that
                              magnitude, did not require a revision.

                              A minimum return on investment is required to approve
                              economic projects; however, actual project savings were not
                              tracked and return on investment was not reported in the
                              Investment Highlights report. Project savings are the key
                              component of return on investment, which is one of the
                              primary factors the Board of Governors considers for
                              economic projects.




                                                 24
                                       Restricted Information
Decision Analysis Report Process                                                   DA-AR-01-005




                              In previous audits of equipment projects, we identified
                              significant differences between actual and projected labor
                              savings. The following examples illustrate overstated
                              savings that could result in inflated returns on investment.

                                   •    For the Robotics Containerization System, the
                                        Decision Analysis Report projected $347 million in
                                        labor savings that may not be attainable unless the
                                        staffing levels meet projections in the Decision
                                        Analysis Report.

                                   •    For the Tray Management System, labor savings
                                        were overstated by $442 million because officials did
                                        not exclude savings that were projected to be
                                        achieved at sites not receiving the system.

                              According to the Postal Service, operating costs and other
                              performance measures that determine project savings are
                              difficult to isolate in overlapping equipment projects and
                              interrelated operations. However, Finance and Operations
                              stated they are exploring ways to identify meaningful
                              performance measures such as equipment utilization,
                              throughput, and integration with other systems. In addition,
                              Finance and Operations suggested a need for sponsors to
                              identify leading indicators that support performance
                              measures for each Decision Analysis Report. Similarly, the
                              GAO’s Executive Guide for Leading Practices in Capital
                              Decision-Making discusses the practice and benefit of
                              evaluating project results through setting overall
                              performance measures and assessing these with specific
                              performance indicators.

                              Postal Service management attributed some of the prior
                              reported findings to challenges they faced in the early
                              project stages. Nevertheless, without performance
                              measures, management cannot easily identify when
                              continued deployment of a project is in the best operating
                              and financial interest of the Postal Service.

 Recommendation               We recommend the vice president, Finance, controller:

                                   8.     Identify effective performance measures to be used
                                          in assessing economic projects during deployment.




                                                   25
                                         Restricted Information
Decision Analysis Report Process                                                   DA-AR-01-005




 Management’s                 Management agreed with this recommendation. Finance
 Comments                     stated that they would require the sponsor of new Decision
                              Analysis Reports to include the specific performance
                              measures and methodology to be used in assessing
                              economic projects during deployment. This effort will be
                              coordinated with Engineering and Operations and begin with
                              new projects initiated in quarter II, FY 2002.

 Evaluation of                Management’s comments are responsive to our
 Management’s                 recommendation.
 Comments

 Recommendation                    9.    Revise Handbook F-66, Investment Policies and
                                         Procedures, to require project sponsors to identify
                                         leading indicators that support performance
                                         measures for each Decision Analysis Report and
                                         include methodologies in supporting
                                         documentation.

 Management’s                 Management agreed with this recommendation. In
 Comments                     conjunction with recommendation 8, the Handbook F-66 will
                              be revised to require project sponsors to include specific
                              leading indicators and methodologies for measuring project
                              success. This change will be effective with new projects
                              beginning in quarter II, FY 2002.

 Evaluation of                Management’s comments are responsive to our
 Management’s                 recommendation.
 Comments

 Recommendation                    10.   Ensure compliance reports include leading
                                         indicators to support performance measures, which
                                         will be reported in the Investment Highlights report.

 Management’s                 Management agreed with this recommendation. In
 Comments                     conjunction with recommendations 8 and 9, the policy will be
                              strengthened to require that the measures of success be
                              addressed in the compliance report.

 Evaluation of                Management’s comments are responsive to our
 Management’s                 recommendation. If policy changes are implemented with
 Comments                     new projects beginning in quarter II, FY 2002, changes in
                              compliance reporting will be reflective in the subsequent
                              issue of the Investment Highlights.


                                                   26
                                         Restricted Information
Decision Analysis Report Process                                                   DA-AR-01-005




 Cost Studies Were Not        According to the investment policy, cost studies are intended
 Timely and Frequent          to provide assurances that projects are implemented and
                              savings materialize as stated in the approved Decision
                              Analysis Report. However, only three cost studies were
                              completed for projects approved in the past 10 years limiting
                              their usefulness. In addition cost studies did not provide
                              Postal Service management with timely assurance because
                              they are performed at least 18 months after final
                              deployment. The audit revealed that policies did not exist
                              for selecting projects for cost studies. Similarly, there were
                              no procedures for monitoring cost studies.

                              Finance performs cost studies and also interim studies and
                              ad hoc analyses of project performance. We determined
                              that cost studies are an effective tool to compare project
                              performance to projections in the Decision Analysis Report
                              after the project is completed. Unlike compliance reports
                              that did not report operating costs and savings, cost studies
                              did report these key performance measures. In addition,
                              cost studies compared all actual costs and savings to the
                              projections in the Decision Analysis Report in determining
                              the projects actual return on investment.

                              Taken collectively, cost studies and compliance reports did
                              not assure projects met financial and operational projections
                              in Decision Analysis Reports. While compliance reports
                              were performed routinely, they did not provide adequate
                              project performance information for the Investment
                              Highlights, or report projects’ actual operating costs. Cost
                              studies reported actual operating costs, however, they were
                              neither timely nor frequently prepared.

                              Since project savings are a key factor the Board of
                              Governors considers in approving most major projects, it is
                              critical that they receive actual performance results
                              indicating whether savings are materializing. Effective
                              monitoring and reporting of project performance is critical
                              given the $17.5 billion in planned capital investments for
                              FY 2001 to 2005. Furthermore, since the Board of
                              Governors deferred $1 billion of the $3.6 billion in capital
                              investments planned for FY 2001, it is critical for the Postal
                              Service to effectively monitor and report program
                              performance.



                                                 27
                                       Restricted Information
Decision Analysis Report Process                                                   DA-AR-01-005




 Recommendation               In conjunction with the recommendation to identify
                              performance measures, we recommend the vice president,
                              Finance, controller:

                                   11.   Develop policies and procedures for selecting and
                                         monitoring projects for cost studies.

 Management’s                 Management agreed with this recommendation and plans to
 Comments                     put in place a decision matrix to help prioritize projects for
                              review in quarter I, FY 2002. However, due to the amount of
                              resources involved, they will pursue cost studies that focus
                              on high risk/high profile projects such as the Tray
                              Management System and the 34 letter mail automation
                              projects, which are assessed annually.

 Evaluation of                Management’s comments are responsive to our
 Management’s                 recommendation.
 Comments

 Recommendation                    12.   Reassess the procedures to perform cost studies
                                         before final deployment to improve their timeliness
                                         and benefit.

 Management’s                      Management agreed with this recommendation.
 Comments                          Management stated that if efforts addressed in
                                   recommendations 8, 9, and 10 are successful, the
                                   reliance on cost studies should be significantly reduced.

 Evaluation of                     Management’s comments are responsive to our
 Management’s                      recommendation.
 Comments




                                                   28
                                         Restricted Information
Decision Analysis Report Process                            DA-AR-01-005



                    APPENDIX. MANAGEMENT’S COMMENTS




                                             29
                                   Restricted Information
Decision Analysis Report Process                            DA-AR-01-005




                                             30
                                   Restricted Information
Decision Analysis Report Process                            DA-AR-01-005




                                             31
                                   Restricted Information
Decision Analysis Report Process                            DA-AR-01-005




                                             32
                                   Restricted Information
Decision Analysis Report Process                            DA-AR-01-005




                                             33
                                   Restricted Information
Decision Analysis Report Process                            DA-AR-01-005




                                             34
                                   Restricted Information
Decision Analysis Report Process                            DA-AR-01-005




                                             35
                                   Restricted Information
Decision Analysis Report Process                            DA-AR-01-005




                                             36
                                   Restricted Information
